                                                                  Issue Date
                                                                               April 11, 2007
                                                                  Audit Report Number
                                                                               2007-AT-1007




TO:           Jose R. Rivera, Director, Community Planning and Development, San Juan
                Field Office, 4ND



FROM:         James D. McKay, Regional Inspector General for Audit, 4AGA


SUBJECT:      The Municipality of Toa Baja, Puerto Rico, Needs to Improve Its Community
              Development Block Grant Program Administration

                                        HIGHLIGHTS

 What We Audited and Why

              We audited the Municipality of Toa Baja’s (Municipality) Community
              Development Block Grant (Block Grant) program. We selected the Municipality
              for review as part of our strategic plan. The objective of the audit was to
              determine whether the Municipality complied with U.S. Department of Housing
              and Urban Development (HUD) regulations, procedures, and instructions related
              to the administration of the Block Grant program.

 What We Found


              The Municipality’s management controls over its housing rehabilitation activities
              were inadequate. It improperly used Block Grant funds for ineligible new
              housing construction; did not ensure that units were adequate, safe, and sanitary;
              and lacked adequate documentation to support program accomplishments.
              Therefore, program expenditures of more than $77,000 are ineligible, and more
              than $1 million is considered unsupported pending an eligibility determination by
              HUD.



      Table of Contents
          The Municipality’s financial management system did not fully comply with
          applicable HUD requirements. The system did not properly allocate more than
          $297,000 in administrative expenditures, did not support the allowability for more
          than $107,000 in program disbursements, could not account for more than
          $84,000 in Block Grant receipts, and allowed the use of more than $12,000 for
          ineligible expenditures.

          The Municipality awarded six contracts totaling more than $231,000 without
          following HUD procurement requirements. As a result, it cannot ensure that
          quality goods and services were obtained at the most advantageous terms. In
          addition, the Municipality did not support the reasonableness of more than
          $167,000 in Block Grant disbursements and paid more than $5,000 for excessive
          expenditures.

What We Recommend


          We recommend that the director of the San Juan Office of Community Planning
          and Development require the Municipality to repay more than $89,000 in
          ineligible expenditures and $5,190 in excessive costs. The director should also
          require the Municipality to provide all supporting documentation showing the
          appropriateness and eligibility of more than $1.72 million in Block Grant
          disbursements. We also recommend that the director require the Municipality to
          develop and implement an internal control plan to ensure that the Block Grant
          program has (1) controls and procedures which ensure that the housing
          rehabilitation activities meet the program objectives, (2) a financial management
          system that complies with HUD requirements, and (3) procurement procedures
          which ensure that goods and services are obtained at the most advantageous terms
          and in a manner providing full and open competition. In addition, we recommend
          that the director require the Municipality to ensure that Block Grant expenditures
          are properly accounted for, reconciled with HUD’s disbursement system, and in
          compliance with HUD requirements.

          For each recommendation without a management decision, please respond and
          provide status reports in accordance with HUD Handbook 2000.06, REV-3.
          Please furnish us copies of any correspondence or directives issued because of the
          audit.




  Table of Contents
                                           2
Auditee’s Response


           We discussed the findings with the Municipality during the audit and at the exit
           conference on February 22, 2007. The Municipality provided its written
           comments to our draft report on March 5, 2007. In its response, the Municipality
           generally disagreed with the findings.

           The complete text of the Municipality’s response, along with our evaluation of
           that response, can be found in appendix B of this report. Attachments to the
           Municipality’s comments were not included in the report, but are available for
           review upon request.




  Table of Contents

                                           3
                             TABLE OF CONTENTS

Background and Objectives                                                          5

Results of Audit
        Finding 1: Management Controls over Housing Rehabilitation Activities      6
                   Were Inadequate
        Finding 2: The Municipality’s Financial Management System Did Not Fully    15
                   Comply with HUD Requirements
        Finding 3: The Municipality Did Not Comply with Procurement Requirements   19

Scope and Methodology                                                              22

Internal Controls                                                                  24

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use             26
   B.   Auditee Comments and OIG’s Evaluation                                      27
   C.   Criteria                                                                   41
   D.   Schedule of Procurement Deficiencies                                       42




                                              4
                     BACKGROUND AND OBJECTIVES

The Municipality of Toa Baja (Municipality) is an entitlement recipient administering more than
$10.7 million in Community Development Block Grant (Block Grant) funds approved by the
U.S. Department of Housing and Urban Development (HUD) during the past four years. HUD’s
Integrated Disbursement and Information System reflected Block Grant expenditures exceeding
$4 million during fiscal years 2004 and 2005 for the following activities:

            Block Grant activity                   Fiscal year 2004       Fiscal year 2005
      Public facilities and improvements                   $ 1,019,489            $ 1,123,370
            Housing rehabilitation                             617,670                476,563
         Planning and administration                           417,311                373,282
                      Total                                $ 2,054,470            $ 1,973,215

The Municipality’s housing department was responsible for administering the Block Grant
program. Its books and records for the Block Grant and Section 108 Loan Guarantee Assistance
(Loan Guarantee) programs are maintained at Road #867, Sábana Seca Avenue, Toa Baja, Puerto
Rico.

We audited the Municipality’s Block Grant program as part of the HUD Office of the Inspector
General’s (OIG) strategic plan. The Municipality was selected for review based on a risk
assessment.

This is the second OIG audit of the Municipality. Audit report 2006-AT-0019, issued September
6, 2006, pointed out that the Municipality did not follow HUD requirements in the administration
of its Loan Guarantee program. It did not manage two Loan Guarantee program activities in an
economical, efficient, and effective manner and did not demonstrate compliance with
environmental review procedures. HUD is working with the Municipality to resolve the findings
in that report.

The objective of this audit was to determine whether the Municipality complied with HUD
regulations, procedures, and instructions related to the administration of the Block Grant
program.




   Table of Contents

                                               5
                                      RESULTS OF AUDIT

Finding 1: Management Controls over Housing Rehabilitation
           Activities Were Inadequate
The Municipality improperly used Block Grant funds for new housing construction; did not
ensure that units were adequate, safe, and sanitary; and lacked adequate documentation to
support program accomplishments. These deficiencies occurred because the Municipality lacked
effective management and controls over its housing rehabilitation activities. As a result, HUD
has no assurance that program objectives were met and that reported accomplishments were
accurate. Therefore, program expenditures of more than $77,000 are ineligible, and $1 million is
considered unsupported pending an eligibility determination by HUD. 1



    Ineligible New Housing Construction


         The Block Grant program allows disbursements to finance the rehabilitation cost of
         existing residential property. However, the cost associated with new housing
         construction and the creation of a secondary housing unit attached to a primary unit is not
         an allowable expense under the Block Grant program.

         The Municipality disbursed more than $77,000 in Block Grant funds for new housing
         construction in violation of HUD requirements. It approved Block Grant assistance to
         build or complete the construction of 33 new dwelling units.




1
  Housing rehabilitation disbursements between July 1, 2004, and June 30, 2006, totaled $1,176,655. We adjusted
this amount to consider the $107,709 questioned in recommendation 2C.

                                                        6
    Table of Contents
                    Block Grant funds were used for the
                    construction of a new dwelling unit.
                    This violation was not reported by the
                    Municipality during its January 26,
                    2006, inspection.




                    Block Grant funds were used in the
                    construction of a new dwelling unit
                    above an existing unit. This violation
                    was not reported by the Municipality
                    during its June 7, 2006, inspection.




Table of Contents
                                    7
                    Block Grant funds were used in the
                    construction of a new dwelling unit above an
                    existing unit. This violation was not reported
                    by the Municipality during its June 20, 2006,
                    inspection.




                    Block Grant funds are being used in the
                    construction of a new dwelling unit in the
                    basement of an existing unit. The Municipality
                    has not inspected this unit for more than a year.




Table of Contents
                                          8
            A Municipality official informed us that program funds were used to complete the
            construction of new dwelling units because the Municipality believed that this
            type of work was eligible and that it had obtained HUD approval for this type of
            assistance. The Municipality did not provide us support showing that HUD
            approved the use of Block Grant funds to finance new housing construction.
            Further, this practice is in violation of HUD requirements in 24 CFR [Code of
            federal Regulation] 570.207.


Units Not Adequate, Safe, and
Sanitary


            The Municipality’s housing rehabilitation program guidelines provide that the
            main objective of the activity is to improve the condition of dwelling units,
            making them adequate, safe, and sanitary. The guidelines also provide that all
            housing rehabilitation work approved under the program must comply with
            federal, state, and municipal regulations and requirements. However, the
            Municipality did not ensure that program objectives and/or guidelines were
            followed. This noncompliance occurred because the Municipality did not have
            adequate procedures and controls over its housing rehabilitation activities.

            From the Municipality’s 561 units approved for assistance between July 2004 and
            June 2006, we selected 21 units for inspection. Our inspections found that some
            of the rehabilitation work was deficient or did not promote the welfare of
            participants. Further, some of the rehabilitation work could be in violation of
            local building codes.

            Inadequate supporting columns, improper electrical connections, and improper
            installation of wooden panels were some of the deficiencies noted during our
            inspections.




  Table of Contents

                                            9
                    The house is supported with concrete blocks,
                    which makes the structure unstable and unsafe.
                    The Municipality has not inspected this unit
                    since December 2005.




                    A new bedroom (concrete structure) was
                    added to the existing structure. The door
                    area of the new structure had exposed
                    reinforcement rods and no balcony,
                    creating serious safety hazards. This unsafe
                    condition was not reported by the Munici-
                    pality during its June 16, 2006, inspection.




Table of Contents
                                        10
                    An improper electrical connection and missing
                    ceiling panels created a safety hazard.




                     Water lines were hanging from the living
                     room ceiling.




Table of Contents

                                         11
           The Municipality’s inspections did not consider whether units were adequate,
           safe, and sanitary or whether the repair work complied with federal or local codes
           as specified in its guidelines. The Municipality’s inspector informed us that he
           only certified that the materials were used and that the repair work was
           completed. Municipality officials informed us that they were unfamiliar with
           their own guidelines and did not have written standards to ensure that units or the
           repair work met applicable requirements.


Unsupported Housing Rehabilitation
Accomplishments

           According to the Municipality’s records, it disbursed more than $1 million for
           housing rehabilitation efforts between July 2004 and June 2006. During this
           period, it reported to HUD that it completed the rehabilitation work for more than
           500 dwelling units. However, Municipality management did not maintain
           adequate internal controls to track and support the accomplishments of its housing
           rehabilitation activities. As a result, HUD has no assurance that program
           objectives were met or that reported accomplishments were accurate.

           The Municipality reported in its 2004 annual performance report that 290 units
           were rehabilitated between July 2004 and June 2005. However, only 70 cases had
           a final inspection evidencing that the rehabilitation work was done. In 167 cases,
           all of the materials were delivered to the participants, but there was no support in
           the files to corroborate that the repair work was completed. In addition, the
           Municipality did not locate 25 housing rehabilitation case files. The
           Municipality’s housing rehabilitation accomplishments included in the 2005
           annual performance report were also unsupported. The Municipality reported that
           270 dwelling units were rehabilitated between July 2005 and June 2006, but it did
           not provide us with a detailed list of the completed cases. Therefore, we could
           not corroborate the 2004 and 2005 housing rehabilitation accomplishments as
           reported to HUD.

           The Municipality did not have in place an adequate tracking system to show the
           total assistance provided to each participant, the status of the repair work, the
           cases with due inspections, or the participants with undelivered materials. The
           Municipality’s housing rehabilitation coordinator informed us that the
           Municipality would have to review each individual case file to obtain or extract
           the above-mentioned data.




  Table of Contents
                                            12
    Other Deficiencies



                 We identified other deficiencies related to the administration of the housing
                 rehabilitation activities.

                 Missing work specifications - The Municipality did not prepare detailed work
                 write-ups or specifications of the rehabilitation work needed. The files only
                 contained a general statement from the Municipality’s inspector. The files did not
                 clearly demonstrate the type of repair or the amount of assistance needed to bring
                 the unit up to program standards. As a result, the files did not properly support
                 the needed repairs, and the completed work assisted with Block Grant funds could
                 not be determined. A similar deficiency was identified in the 2002 and 2004
                 HUD monitoring reports; however, the deficiency continues to exist.

                 Inspection process inadequate - The Municipality’s housing rehabilitation
                 guidelines provide that assisted dwelling units will be inspected to ensure the use
                 of the materials provided to participants and the adequacy of rehabilitation work.
                 Once materials are delivered, the Municipality would conduct progress
                 inspections every 45 days and a final inspection after 90 days.

                 The Municipality’s inspection process was inadequate, and guidelines were not
                 followed. We found 81 cases in which the Municipality had not conducted any of
                 the required inspections. 2 Of the 81 cases without inspections, the Municipality
                 had not inspected 67 for more than a year. The Municipality inspector informed
                 us that he was not aware that progress inspections were required every 45 days
                 and attributed the delayed inspections to an excessive workload because of the
                 lack of personnel.


    Conclusion


                 Because the Municipality did not implement adequate internal controls, it
                 improperly used Block Grant funds for new housing construction, did not ensure
                 that units met program standards, and did not properly support program
                 accomplishments. Therefore, expenditures of more than $77,000 are ineligible,
                 and $1 million is considered unsupported pending an eligibility determination by
                 HUD. 3 Management must implement policies and procedures which ensure that
                 it complies with HUD requirements and that program objectives are met, and
                 emphasize that staff follows them.

2
  Rehabilitation cases approved between June 2004 and July 2005.
3
  Housing rehabilitation disbursements between July 1, 2004, and June 30, 2006, totaled $1,176,655. We adjusted
this amount to consider the $107,709 questioned in recommendation 2C.

                                                       13
     Table of Contents
Recommendations


          We recommend that the director of the San Juan Office of Community Planning
          and Development

          1A.     Require the Municipality to reimburse the Block Grant program from
                  nonfederal funds $77,811 paid for ineligible new housing construction.

          1B.     Require the Municipality to submit supporting documentation showing the
                  current status of the repair work, the eligibility and propriety of
                  $1,068,946 disbursed for housing rehabilitation activities or reimburse the
                  Block Grant program from nonfederal funds.3

          1C.     Require the Municipality to establish and implement management controls
                  and procedures to ensure that its housing rehabilitation activities meet
                  program objectives, that Block Grant funds are only used for eligible
                  purposes, the rehabilitation work is properly performed and in accordance
                  with standards, and activity accomplishments are correctly reported to
                  HUD.




  Table of Contents

                                           14
Finding 2: The Municipality’s Financial Management System Did Not
           Fully Comply with HUD Requirements
The Municipality’s financial management system did not properly allocate more than $297,000
in administrative expenditures, did not support the allowability of more than $107,000 in
program disbursements, could not account for more than $84,000 in Block Grant receipts, had
not disbursed more than $34,000 in proceeds, and allowed the use of more than $12,000 for
ineligible expenditures. The noncompliance occurred because the Municipality did not develop
and implement policies and procedures to ensure compliance with financial requirements of
HUD programs. Consequently, the Municipality’s internal controls were not sufficient to
safeguard assets or ensure their use for authorized purposes and in accordance with HUD
requirements.



 No Allocation of Salaries and
 Telephone Expenditures


              The Block Grant program only allows disbursements for reasonable expenditures
              associated with the planning and execution of community development activities
              that are supported by source documentation. The Municipality did not track its
              employees’ time by program activity or implement a cost allocation plan to
              distribute its administrative salary and telephone expenses among HUD programs.
              It charged the full salary of eight employees to the Block Grant program although
              they performed additional functions not related to the program. The Municipality
              did not allocate the salaries based on the time spent by these employees on each
              of the programs. A similar deficiency was identified with the Municipality’s
              telephone expenditures. The Municipality charged to the Block Grant program
              the full cost associated with the use of eight cellular phones and the main
              switchboard although they were also used by the Municipality’s Section 8
              program. HUD has no assurance of the reasonableness, allowability, and
              allocability of more than $297,000 in administrative salaries and telephone
              expenses associated with costs charged to the Block Grant program between
              January 2004 and June 2006.




   Table of Contents
                                             15
Unsupported Program
Disbursements

           The Municipality did not provide adequate documentation supporting the
           allowability and allocability of more than $107,000 charged to the Block Grant
           program associated with its housing rehabilitation activity. In March 2005, the
           Municipality transferred $107,709 from the Block Grant account to its general
           fund as a reimbursement for payroll expenditures corresponding to the period of
           July 2004 through February 2005. However, it did not provide us with a list of
           the employees and payroll records to support the amount charged. As a result,
           HUD has no assurance of the reasonableness, allowability, and allocability of
           $107,709 charged to the Block Grant program.

Inaccurate Accounting Records


           HUD requires recipients of Block Grant funds to maintain financial records that
           are accurate and current and that adequately identify the source and application of
           funds provided for assisted activities. The Municipality’s accounting records
           were not accurate, current, or complete.
           The Municipality’s accounting records did not reflect complete and accurate
           financial information on program activities. For example, its accounting records
           did not include Block Grant fund balance accounts and did not account for capital
           assets acquired or constructed with HUD funds. The accounting records also
           contained several instances of incorrect beginning and ending balances, duplicate
           charges, adjustments without proper journal entries, and transactions not recorded.

           In addition, the expenditures shown in the Municipality’s general ledger for the
           fiscal year ending June 30, 2005, did not agree with amounts reflected in HUD’s
           Integrated Disbursement and Information System.

                     Activity          General ledger     IDIS*           Difference
              Public facilities and         $1,254,317 $1,123,370             $130,947
                improvements
             Housing rehabilitation           $391,965    $476,563          <$84,598>
           Administration and planning        $410,985    $373,282            $37,703
                Public services                   $111            0              $111
                  *
                    Integrated Disbursement and Information System

           The Municipality did not explain the discrepancies between the accounting
           records and could not account for $84,598 drawn from HUD for its housing
           rehabilitation activity.



Table of Contents
                                           16
Unused Proceeds



             The Municipality’s records reflected more than $34,000 in 1991 and 1994 Loan
             Guarantee proceeds that had not been disbursed and remained in the
             Municipality’s bank account. Although all Loan Guarantee activities had been
             completed, the Municipality had not reprogrammed these proceeds for eligible
             Block Grant activities. These funds had been unused by the Municipality for at
             least two years.


Ineligible Costs


             The Block Grant program allows disbursements for reasonable expenditures
             associated with the planning and execution of community development activities.
             However, the Municipality improperly used $7,920 in Block Grant funds for
             expenses not associated with the program and paid $4,215 for ineligible catering
             services and late payment penalties.

             As a result, Block Grant funds totaling $12,135 were improperly used for
             expenditures not related to program goals and objectives.


Conclusion



             The Municipality did not maintain a financial management system that adequately
             identified the source and application of Block Grant funds and that permitted only
             charges for allocable and allowable costs. The Municipality’s Block Grant
             program accounting records were incomplete because they did not reflect the
             complete and full history of all financial transactions. As a result, HUD has no
             assurance that funds were adequately accounted for, safeguarded, and used for
             authorized purposes and in accordance with HUD requirements.


Recommendations



             We recommend that the director of the San Juan Office of Community Planning
             and Development


Table of Contents
                                             17
         2A.   Require the Municipality to determine the correct allocation of $297,569
               in administrative salaries and telephone charges, make the related
               accounting adjustments to its books and records, and transfer the funds to
               correct the allocation.

         2B.   Require the Municipality to develop and implement a financial
               management system to track and properly allocate its administrative
               expenditures among HUD programs, and that permits the tracing of funds
               to a level which ensures that such funds have not been used in violation of
               the restrictions and prohibitions of applicable statutes.

         2C.   Require the Municipality to submit all supporting documentation showing
               the eligibility and propriety of $107,709 in labor costs that the
               Municipality charged to the Block Grant housing rehabilitation activity, or
               reimburse the Block Grant program from nonfederal funds.

         2D.   Require the Municipality to submit all supporting documentation showing
               the eligibility and propriety of $84,598 drawn from HUD for its housing
               rehabilitation activity, or reimburse the Block Grant program from
               nonfederal funds.

         2E.   Require the Municipality to reprogram and use $34,091 in Loan Guarantee
               proceeds for eligible Block Grant activity or reimburse the funds to HUD.

         2F.   Require the Municipality to reimburse the Block Grant program from
               nonfederal funds $12,135 paid for ineligible expenditures.

         2G.   Require the Municipality to ensure that grant expenditures from July 2004
               through October 2006 are properly accounted for, reconciled with HUD’s
               Integrated Disbursement and Information System, and in compliance with
               HUD requirements.




Table of Contents
                                        18
Finding 3: The Municipality Did Not Comply with Procurement
           Requirements

The Municipality awarded six contracts totaling more than $231,000 without following HUD
procurement requirements. This noncompliance occurred because the Municipality did not have
in place adequate internal controls and procedures and was not familiar with applicable Block
Grant requirement standards. As a result, it cannot ensure that services were obtained at the most
advantageous terms. In addition, the Municipality did not support the reasonableness of
$167,555 in Block Grant disbursements and paid more than $5,000 for excessive expenditures. 4




    Procurement Standards Not
    Followed


               Program regulations provide that recipients shall comply with HUD procurement
               standards contained in 24 CFR [Code of Federal Regulations] 85.36. The standards
               include conducting procurements using full and open competition, fully documenting
               all procurement activities, and performing price or cost analyses.

               We analyzed six contracts awarded between February and August 2005. There were
               at least five procurement deficiencies in all six contracts reviewed. For example, the
               Municipality did not

               •   Maintain adequate support showing that price or cost analyses were performed
                   and the basis used to determine the reasonableness of the contracted amount,

               •   Provide potential contractors with complete and adequate specifications of the
                   scope of the services to be performed,

               •   Ensure that requests for proposal identified all evaluation factors and their relative
                   importance, or

               •   Ensure that contracts included all provisions required by 24 CFR [Code of
                   Federal Regulations] 85.36(i). For example, it did not include provisions related
                   to (1) providing HUD, the comptroller general of the United States, or any of their
                   duly authorized representatives access to any books, documents, papers, and
                   records of the contractor, which are directly pertinent to the specific contract for
                   the purpose of making audit, examination, excerpts, and transcriptions, and (2) the
                   retention of all required records for three years after the final payment and all
                   other matters are closed.

4
    Total disbursements of $169,680 were adjusted to consider the $2,125 questioned in recommendation 2F.

                                                         19
    Table of Contents
             The Municipality’s bid board secretary informed us that she was not familiar with
             HUD procurement standards and could not ensure that the procurement process
             met applicable requirements. Thus, the Municipality did not provide evidence
             that it created an environment that permitted full and open competition as required
             by HUD. Appendix D has a list of the procurement deficiencies found during the
             review.


Excessive Expenditures



             The Municipality awarded two contracts and paid $25,950 for legal services.
             Although the services were procured through requests for proposal, the
             Municipality did not award the procurement to the lowest proposal but, instead,
             split the contract between two vendors. It did not provide documentation
             explaining why the lowest proposal was not selected or the basis used to
             determine the reasonableness of the contracted amounts. As a result, the Block
             Grant program was charged $5,190 for excessive expenditures.

                                         Amount paid          Lowest           Excessive
          Period of services                                 proposal           amount
        August 2005 - June 2006                $16,500           $13,200            $3,300
          March - June 2005                      9,450             7,560              1,890
                 Total                         $25,950           $20,760            $5,190


Conclusion



             The Municipality did not provide evidence that it created an environment that
             permitted full and open competition as required by HUD. It did not provide
             adequate support showing the reasonableness of $167,555 in Block Grant
             contracts and paid $5,190 in excessive expenditures. This noncompliance
             occurred because the Municipality did not have in place adequate internal controls
             and procedures and was not familiar with applicable Block Grant requirement
             standards. As a result, HUD has no assurance that services were obtained at the
             most advantageous terms and in a manner providing full and open competition or
             in accordance with HUD requirements.




 Table of Contents

                                             20
    Recommendations



                   We recommend that the director of the San Juan Office of Community Planning
                   and Development

                   3A.      Require the Municipality to provide support showing the eligibility and
                            reasonableness of $167,555 spent on consulting, engineering, and legal
                            services, or reimburse the Block Grant program from nonfederal funds. 5

                   3B.      Require the Municipality to reimburse the Block Grant program from
                            nonfederal funds $5,190 paid for excessive legal services expenditures.

                   3C.      Require the Municipality to develop and implement procurement
                            procedures and controls that comply with HUD requirements to ensure
                            that goods and services are obtained at the most advantageous terms and in
                            a manner providing full and open competition.




5
    Total disbursements of $169,680 were adjusted to consider the $2,125 questioned in recommendation 2F.

                                                         21
      Table of Contents
                                SCOPE AND METHODOLOGY

The audit objective was to determine whether the Municipality complied with HUD regulations,
procedures, and instructions related to the administration of the Block Grant program. To
accomplish our objectives, we

    •   Obtained and reviewed relevant HUD regulations and Municipality guidelines;

    •   Interviewed HUD, Municipality, and contractor officials;

    •   Reviewed monitoring and independent accountant reports;

    •   Reviewed the Municipality’s files and records, including general ledgers;

    •   Performed site inspections of housing rehabilitation activities; and

    •   Reviewed the Municipality’s controls related to the administration of its Block Grant
        program.

We obtained a list of housing rehabilitation grants the Municipality awarded between July 1,
2004, and June 30, 2006. During this period, the Municipality awarded 561 housing
rehabilitation grants totaling $991,838. We selected and reviewed 291 grants totaling $544,457
that were awarded between July 1, 2004, and June 30, 2005. We reviewed each file to verify the
status of the rehabilitation work and the appropriateness of the assistance provided. In addition,
we inspected 21 dwelling units with grants totaling $86,163 awarded between July 1, 2004, and
May 31, 2006. The units selected for inspection were those that had an approved rehabilitation
grant exceeding $4,000 or those for which the assistance provided appeared to be for new
housing construction.

The Municipality’s check register reflected more than $2.5 million in Block Grant disbursements
between July 1, 2004, and May 31, 2006. We selected disbursements from the Municipality’s
check register with a value greater than $10,000, resulting in a sample of 15 disbursements
totaling $959.714. 6 We selected 36 additional disbursements totaling $207,595 based on the
vendor or purpose of the payment. The expenditures and related supporting documents were
reviewed to determine whether the payments met Block Grant requirements, including
allowability and allocability of the costs.

We obtained a list of the Municipality’s Block Grant procurement efforts performed between
July 1, 2004, and May 31, 2006. The Municipality conducted two significant procurements,
awarding six contracts totaling $231,350. We selected and reviewed both procurements because
of the small size of the population. We reviewed each file to determine whether the procurement
process followed by the Municipality met HUD standards.

6
  We excluded seven disbursements totaling $487,400 because these were within the scope of the first OIG audit
report of the Municipality.

                                                       22
    Table of Contents
To achieve our audit objectives, we relied in part on computer-processed data contained in the
Municipality’s database. Although we did not perform a detailed assessment of the reliability of
the data, we performed a minimal level of testing and found the data to be adequate for our
purposes. The results of the audit apply only to the items selected and cannot be projected to the
universe or population.

The audit generally covered the period July 1, 2004, through May 31, 2006, and we extended the
period as needed to accomplish our objectives. We conducted our fieldwork from July through
November 2006 at the Municipality’s offices in Toa Baja, Puerto Rico.

We performed our review in accordance with generally accepted government auditing standards.




    Table of Contents

                                                23
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls



              We determined the following internal controls were relevant to our audit objectives:

                    •   Compliance with laws and regulations – Policies and procedures that
                        management has implemented to reasonably ensure that resource use is
                        consistent with laws and regulations.

                    •   Safeguarding of resources – Policies and procedures that management has
                        implemented to reasonably ensure that resources are safeguarded against
                        waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




  Table of Contents
                                               24
Significant Weaknesses



           Based on our review, we believe the following items are significant weaknesses:

                •   The Municipality’s management controls over its housing rehabilitation
                    activities were inadequate (see finding 1).

                •   The Municipality’s financial management system did not fully comply
                    with applicable HUD requirements (see finding 2).

                •   The Municipality did not follow HUD procurement requirements when
                    awarding six contracts totaling more than $231,000 (see finding 3).




  Table of Contents

                                           25
                                        APPENDIXES

Appendix A
                  SCHEDULE OF QUESTIONED COSTS
                 AND FUNDS TO BE PUT TO BETTER USE

                                                          Unreasonable or    Funds to be put to
     Recommendation     Ineligible 1/    Unsupported 2/   unnecessary 3/       better use 4/
          1A                $77,811
          1B                                 $1,068,946
          2A                                    297,569
          2C                                    107,709
          2D                                     84,598
          2E                                                                           $34,091
          2F                 12,135
          3A                                    167,555
          3B                _______          _________             $5,190              _______
         Total              $89,946          $1,726,377            $5,190               $34,091

1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
        that the auditor believes are not allowable by law; contract; or federal, state, or local
        polices or regulations.

2/      Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
        or activity when we cannot determine eligibility at the time of audit. Unsupported costs
        require a decision by HUD program officials. This decision, in addition to obtaining
        supporting documentation, might involve a legal interpretation or clarification of
        departmental policies and procedures.

3/      Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
        prudent, relevant, and/or necessary within established practices. Unreasonable costs
        exceed the costs that would be incurred by a prudent person in conducting a competitive
        business.

4/      Recommendations that funds be put to better use are estimates of amounts that could be
        used more efficiently if an OIG recommendation is implemented. This includes
        reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
        incurred by implementing recommended improvements, avoidance of unnecessary
        expenditures noted in preaward reviews, and any other savings, which are specifically
        identified. In this instance, if the Municipality implements our recommendations, it
        will use Loan Guarantee funds for eligible activities. Our estimate reflects the
        Municipality’s account balance for the unused proceeds.

                                               26

      Table of Contents
Appendix B

            AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation     Auditee Comments




                           27
     Table of Contents
Comment 1




  Table of Contents

                      28
Comment 2




   Table of Contents
                       29
Table of Contents
                    30
Comment 3




Comment 4




  Table of Contents

                      31
Comment 1



Comment 5




Comment 6




   Table of Contents

                       32
Comment 7




   Table of Contents

                       33
Table of Contents

                    34
Comment 8




Comment 9




   Table of Contents

                       35
Comment 10




   Table of Contents
                       36
Table of Contents
                    37
                          OIG Evaluation of Auditee Comments

The Municipality generally disagreed with our recommendations, except for recommendations
1C and 2G. Recommendations 2B, 2D, 3A, 3B and 3C were not addressed by the Municipality.

Comment 1    The Municipality states that in 25 of the 33 units questioned the actions taken by
             the homeowners constitute reconstruction and not new housing construction.
             According to the supporting documentation the Municipality provided us during
             the audit, Block Grant funds were improperly used to build or complete the
             construction of new dwelling units and not for reconstruction of existing housing
             units as the Municipality claims in its response. Our review found that Block
             Grant funds were used for the creation of a secondary housing unit attached to a
             primary unit and/or new detached units that is not allowable under the program.
             In addition, HOME program regulations are not applicable to Block Grant
             activities. The Municipality did not provide additional support that could
             demonstrate that the expenses were eligible.

Comment 2    The Municipality states that the Block Grant program regulations do not require
             rehabilitated units to comply with local codes/standards and/or make units
             adequate, safe, and sanitary. However, the objective of the Block Grant program
             is to provide annual grants to recipients to develop viable urban communities by
             providing decent housing and a suitable living environment, and by expanding the
             economic opportunities, principally for low- and moderate-income persons.
             Block Grant recipients must develop activities consistent with program objectives,
             including the elimination of conditions which are detrimental to health, safety,
             and public welfare, through code enforcement, demolition, interim rehabilitation
             assistance, and other related activities. The Municipality did not ensure that its
             housing rehabilitation activity was consistent with Block Grant objectives and/or
             its own guidelines as approved by HUD. Our inspection found that some of the
             rehabilitation work was deficient or did not promote the welfare of participants,
             possibly resulting in a waste of federal funds.

Comment 3    The Municipality states that appropriate supporting documentation was provided
             to HUD on January 2007, and that it has taken action to resolve the finding.
             However, the additional support provided to us was not sufficient to address the
             deficiencies found during our audit. The information provided by the
             Municipality was too general and did not include names of participants, the
             description of the rehabilitation work needed and its status, or the amount of
             assistance provided to participants.

Comment 4    The Municipality states that work specifications are not required under Block
             Grant regulations and that the type of minimal rehabilitation performed did not
             require detail specifications. However, Block Grant regulations do require
             recipients to maintain sufficient records that demonstrate that funds were used in
             an economical and efficient manner and in compliance with HUD requirements.

                                             38
  Table of Contents
            We agree with the Municipality that the installation of a door or window would
            not require detail specifications. However, our concern is related to those cases
            involving substantial rehabilitation work that only contained a general description.
            Without this information, it would be impossible to determine if the required
            work was completed or support the participants’ needs. Our review of participant
            files found that the Municipality did not prepare detail work write-ups or
            specifications of the rehabilitation work needed. As result, the files did not
            properly support the needed repairs and the completed work could not be
            identified.

Comment 5   The Municipality states it submitted evidence to HUD to support eligibility of $1
            million. The Municipality did not provide for our review this evidence to
            corroborate the eligibility and propriety of the disbursements. Therefore, the
            amount of $1 million remains unsupported pending an eligibility determination by
            HUD.

Comment 6   The Municipality states that the administrative functions associated with the
            Section 8 program are allocable to the Block Grant program since the efforts were
            targeted to low income population; thus, in compliance with the national objective
            requirement. This is contrary to requirements contained in OMB Circular A-87.
            In addition, HUD already pays the Municipality a fee for the administrative
            functions of its Section 8 program. The Municipality did not track its employees’
            time by program activity or implement a cost allocation plan. In addition, it did
            not provide us with additional support that could demonstrate that the questioned
            costs were allocable to the Block Grant program.

Comment 7   The Municipality states that the $107,709 charged to the Block Grant program
            were for the reimbursement of payroll expenses associated with its housing
            rehabilitation activities, and that it prepared a list of names, showing the alleged
            incurred expense, as support of its eligibility. However, the list provided by the
            Municipality did not include additional support that could show the
            reasonableness, allowability, and allocability of the expenditures.

Comment 8   The Municipality states that it used $7,920 to cover the cost of mobile telephones
            used. However, the disallowed amount corresponds to costs associated with the
            Disaster Recovery Grant and Section 8 programs that were improperly charged to
            the Block Grant program, and not for the purposes claimed by the Municipality in
            its response.

Comment 9   The Municipality states that the charges associated with the catering services are
            allowable costs of the Block Grant program because meals were provided to
            participants of its housing rehabilitation activities, and that it is allowable under
            OMB Circular A-87. It also states that it would reimburse the costs associated
            with the late payment penalties.


 Table of Contents
                                              39
             The disallowed amount of $4,215 corresponds to disbursements associated with
             catering services ($2,400) and late payment penalties ($1,815), not the amounts
             the Municipality made reference in it response.

             OMB Circular A-87 does allow this type of cost when the primary purpose of
             which is the dissemination of technical information. According to the supporting
             documentation the Municipality provided us during the audit, there was no
             support that could show the allowability, allocability, and reasonableness of the
             charges or that these were associated to orientation sessions to housing
             rehabilitation participants as stated in its response. In five of the eight invoices
             examined, it only included a general statement stating that these were related to
             the signature of housing rehabilitation contracts. According to another invoice,
             breakfast and lunch was provided to 25 persons and delivered to the mayor’s
             office, and another invoice was for snacks provided in a public hearing. The
             eighth invoice examined only stated that is was for 150 persons at a community
             center. None of the eight invoices examined had additional information on the
             activities for which catering services were charged to the Block Grant program.
             The Municipality did not provide us with additional support showing the
             eligibility of the catering services.

Comment 10 The Municipality states that it complied with HUD procurement requirements.
           According to the supporting documentation the Municipality provided us during
           the audit, it awarded six contracts without following HUD procurement
           requirements. Thus, the Municipality did not provide evidence it created an
           environment that permitted full and open competition. The Municipality did not
           provide us with additional support that could demonstrate that services were
           obtained at the most advantageous terms and the reasonableness of more than
           $172,000 in Block Grant disbursements.




   Table of Contents

                                              40
Appendix C
                                          CRITERIA


Federal Regulations at 24 [Code of Federal Regulations] 85.20

Standards for financial management systems require recipients’ financial management systems to
provide for the following:

   •   Accurate, current, and complete disclosure of the financial results of financially assisted
       activities.

   •   Records which adequately identify the source and application of funds provided for
       financially assisted activities. These records must contain information pertaining to grant
       or subgrant awards and authorizations, obligations, unobligated balances, assets,
       liabilities, outlays or expenditures, and income.

   •   Effective control and accountability for all grant and subgrant cash, real and personal
       property, and other assets. Grantees and subgrantees must adequately safeguard all such
       property and must assure that it is used solely for authorized purposes.

   •   Following applicable Office of Management and Budget cost principles, agency program
       regulations, and the terms of grant and subgrant agreements in determining the
       reasonableness, allowability, and allocability of costs.

Federal Regulations at 24 [Code of Federal Regulations] 85.36(b)(9)

Grantees and subgrantees will maintain records sufficient to detail the significant history of
procurement. These records will include but are not necessarily limited to the following:
rationale for the method of procurement, selection of contract type, contractor selection or
rejection, and the basis for the contract price.

Federal Regulations at 24 [Code of Federal Regulations] 570.207(b)(3)

New housing construction is an activity that may not be assisted with Block Grant funds unless
authorized under provisions of §570.203 or when carried out by an entity under the provisions of
§570.204.




 Table of Contents

                                                41
Appendix D

                       SCHEDULE OF PROCUREMENT DEFICIENCIES


                                                       Inadequate           Missing         Missing       Lowest
                                      No cost or     specifications of    evaluating or    contract     proposal not
    Contracted services   Amount     price analysis services solicited   ranking factors   provisions     selected
Consulting services
                           $69,600         X                X                  X               X
August 2005 - June 2006
Engineering services
                            36,270         X                X                  X               X
August 2005 - June 2006
Consulting services
                            30,050         X                X                  X               X
March - June 2005
Legal services
                            16,500         X                X                  X               X             X
August 2005 - June 2006
Engineering services
                            13,000         X                X                  X               X
March - June 2005
Legal services
                             9,450         X                X                  X               X             X
March - June 2005
           Total          $174,870         6                6                  6               6             2
** The schedule does not indicate all violations noted during the review. We only included the most
frequent and serious violations.




    Table of Contents
                                                             42
